                                                                             December 2, 1999




MEMORANDUM

TO:            James Hradsky, Director, USAID/Mali

FROM:          Henry Barrett, RIG/Dakar

SUBJECT:       Audit of USAID/Mali’s Role in Obtaining Audits of Its Contracts, Grants, and
               Cooperative Agreements, Audit Report No. 7-688-00-001-P


This memorandum is our final report on the subject audit. We have considered your
comments to the draft report and have included them in Appendix II.

This report contains nine recommendations, which have all reached the management decision
stage. Furthermore, the Mission is currently in the process of implementing many of these
recommendations. However, as of the date of this report, the required actions have not been
completed. Consequently, the USAID Management Bureau’s Office of Management
Planning and Innovation will be responsible for deciding when final action related to these
recommendations has occurred.

I appreciate the cooperation and courtesies extended to my staff during the audit.


Background
In response to congressional concerns that USAID was not providing adequate audit
coverage of its grants and contracts, particularly its awards to non-U.S. recipients, USAID
has taken a more active role in using audits to ensure financial accountability of its programs.
USAID established an audit management program to oversee its financial audit program in
1992 and amended its standard provisions for contracts, grants and cooperative agreements in
1997 to include new audit requirements. This program required USAID to take a more
involved and assertive role in the overall audit management process to include audit
planning, implementation, and follow-up.



                                               1
In May 1996, USAID consolidated its policies and procedures for financial audits, previously
found in several different directives, into Chapter 591 of the Automated Directives System
(ADS). In September 1997, USAID amended ADS Chapter 591 to change certain audit
responsibilities, including the dollar thresholds for requiring an audit. Currently, the audit
threshold is $300,000 of expenditures which is applicable to both U.S. and non-U.S. private
organizations, as well as foreign governmental entities. Both for-profit and non-profit
organizations are included. Missions have the responsibility for managing audits of non-U.S.
organizations, while USAID/Washington retains responsibility for U.S. organizations.

Under the audit management program, some of the more important mission responsibilities
are as follows:

   §   issue specific guidance on audit management responsibilities and procedures, that
       includes establishing a management control review committee to address all
       management control issues;

   §   ensure that recipients complete and submit required audits within nine months of the
       close of their fiscal year;

   §   take follow-up action on open recommendations within required time frames; and

   §   develop an audit management plan to ensure complete audit coverage of agreements
       that require audit.

For fiscal year 1998, USAID/Mali reported project expenditures for contracts, grants, and
cooperative agreements of $53,457,654 for both U.S. and non-U.S. organizations and
governmental entities. This figure does not include local currency trust funds.

Audit Objective
As an addition to our annual audit plan, RIG/Dakar completed the subject audit to answer the
following audit question:

       Has USAID/Mali managed its audit-related activities and responsibilities in
       accordance with USAID guidelines?

Appendix I contains a discussion of the scope and methodology for the audit.

Audit Findings
Has USAID/Mali managed its audit-related activities and responsibilities in accordance
with USAID guidelines?




                                              2
Although USAID/Mali carried out some aspects of its role in obtaining audits of its contracts,
grants and cooperative agreements, the Mission has not managed its audit-related activities
and responsibilities in accordance with USAID guidelines.

USAID/Mali has taken several steps to implement an audit management program.              For
example, the Mission has:

   §    written a mission order establishing a “Mission Management Control Review
        Committee” (MCRC) and delineating individual audit management responsibilities;

   §    started preparing a draft audit management plan;

   §    budgeted funds for audits in appropriate agreements;

   §    prepared a recommendation follow-up report; and

   §    included audit management responsibilities in employees’ work objectives.

However, USAID/Mali has not adequately managed its audit program to ensure that it has
achieved adequate accountability of USAID funds expended by non-U.S. organizations. In
our audit we determined that (1) audits were not conducted and submitted by required due
dates, (2) recipient agreements were not amended to include updated audit provisions, (3)
audit recommendations were not being actively followed-up, and (4) the audit management
plan and inventory were not complete. These issues are discussed in detail below.

Audits of Recipients Were Not Conducted and
Reports Submitted By The Required Due Dates

USAID/Mali did not ensure that audits were conducted of non-U.S. recipients and that their
audit reports were submitted by the due dates as required in USAID guidance. This occurred
because Mission personnel were not aware of the audit requirements and the Mission’s
decentralized organization did not focus on these requirements. Therefore, control and
accountability over USAID funds expended by recipients were weakened.

Recommendation No. 1: We recommend that USAID/Mali initiate action to have
financial audits conducted in accordance with the “Guidelines for Financial Audits
Contracted by Foreign Recipients” for the following recipients and their fiscal years:

  1.1     the Government of Mali’s expenditures of USAID funds under the
          Community Health and Population Services Project (Project No. 688-0248),
          for its fiscal years ending December 31, 1997 and December 31, 1998;

  1.2     the Government of Mali’s expenditures of USAID funds under the Basic
          Education Expansion Project (Project No. 688-0258), for its fiscal years
          ending December 31, 1997 and December 31, 1998;

                                             3
    1.3   the Government of Mali’s expenditures of USAID funds under the
          Development of the Haute Vallee Project (Project No. 688-0233), for its fiscal
          years ending December 31, 1997 and December 31, 1998;

Recommendation No. 2: We recommend that USAID/Mali strengthen communication
and the organizational structure between the Controller’s Office and the activity
analysts.

Recommendation No. 3: We recommend that USAID/Mali provide in-country training
to analysts and team leaders on ADS Section 591 and audit management.

Recommendation No. 4: We recommend that USAID/Mali develop a plan to review
and, where necessary, schedule current audits for all non-U.S. recipients that require
audits per USAID guidance.

ADS 591.5.4b states that host governments directly expending $300,000 or more per year
under a USAID grant must have an annual audit conducted in accordance with the
“Guidelines for Financial Audits Contracted by Foreign Recipients.” Furthermore, this
section states that reports on these audits will be provided to the cognizant RIG within nine
months after the end of the year in which expenditures are incurred.

We noted that USAID/Mali had not scheduled required audits and submitted audit reports by
the required due dates for any of the three project recipients that we selected for our detailed
review:

§   USAID/Mali’s Management Accounting and Control System (MACS) reflected fiscal
    year 1998 expenditures of $509,297 by the Government of Mali for the Community
    Health and Population Services Project (Project No. 688-0248). However, the most
    recent audit report for the project recipient covered the period ending December 31,
    1996. The report for the recipient’s year ending December 31, 1997 was due on
    September 30, 1998, but had not yet been received as required. Furthermore, during the
    time of our fieldwork (August 1999) the Mission was in the process of preparing a
    “Statement of Work” (SOW) to have an audit performed for the years ended December
    31, 1997 and 1998. Thus, with less than two months available to have a SOW prepared,
    an audit firm selected, the audit conducted and a report issued, it is our opinion that the
    audit for the year ending December 31, 1998 will not be received by the September 30,
    1999 due date.

§   USAID/Mali’s MACS reflected fiscal year 1998 expenditures of $2,231,076 by the
    Government of Mali for the Basic Education Expansion Project (Project No. 688-0258).
    The most recent audit report for the project recipient covered the period ending
    September 30, 1996. The report for the period ending December 31, 1997 was due on
    September 30, 1998, but had not yet been received as required. Furthermore, during the
    time of our fieldwork (August 1999) the Mission was in the process of preparing a
    “Statement of Work” (SOW) to have an audit performed for the period ended December
    31, 1997 and the year ended December 31, 1998. Thus with less than two months
                                              4
    available to have a SOW prepared, an audit firm selected, the audit conducted and a
    report issued, it is our opinion that the audit for the year ending December 31, 1998 will
    not be received by the September 30, 1999 due date.

§   USAID/Mali’s MACS reflected fiscal year 1998 expenditures of $595,132 by the
    Government of Mali for the Development of the Haute Vallee Project (Project No. 688-
    0233). The most recent audit report for the project recipient covered the period ending
    September 30, 1996. The report for the period ending December 31, 1997 was due on
    September 30, 1998. However, as of the time of our fieldwork (August 1999) the process
    of preparing a “Statement of Work” (SOW) to have an audit performed for this period
    had not yet taken place. In addition, the Mission had not yet begun audit planning for the
    next period ending December 31, 1998. Therefore, with less than two months available
    to have a SOW prepared, an audit firm selected, the audit conducted and a report issued,
    it is our opinion that the audit for the year ending December 31, 1998 will not be received
    by the September 30, 1999 due date.

The Mission and its analyst did not take action to have the governmental recipients submit
audit reports for Project Nos. 688-0248 and 688-0258 for a combination of two reasons. The
mission analyst responsible was not aware of the new ADS guidelines, which require annual
audits. Previously, audits could be performed and submitted once every two years. In
addition, from 1995 until January 1999, the Mission’s analysts reported to and were
supervised by the team leaders, instead of the controller. During this period the team leaders
were not focussed on accounting or audit issues. Thus, they did not urge the analysts to
change the reporting schedules of their respective recipients from once every two years to
once a year. It wasn’t until January 1999 that an organizational change was made and the
analysts began reporting to, and being supervised by, the controller.

For Project No. 688-0233, a delay in obtaining a satisfactory audit report for the prior period
contributed to the delay in having an audit performed for the recipient’s year ended 12/31/97.
The Mission initially received the draft audit report for the recipient’s fiscal year ending
12/31/96 in June 1997. However, because of problems with the quality of the audit report, it
was not until September 1998 that RIG/Dakar finally approved the report for release. This
delay of over one year contributed to the delay in scheduling the follow-on audit. The
Mission is currently planning audits for the following three one-year periods of January 1,
1997 to December 31, 1999.

As a result of the above, control and accountability over USAID/Mali’s activities and their
expenditures have been weakened. Two years of USAID/Mali’s expenditures totaling
$4,173,778, for three of its projects, have not been properly accounted for in accordance with
USAID guidelines.

Management Comments and Our Evaluation

USAID/Mali concurs with and is currently in the process of implementing all four of the
recommendations in this finding. More specifically, in its response to the draft report, the
Mission stated that it had fully implemented the suggestions in recommendation number 2.
                                             5
However, as of the date of this report, the Mission had not provided us with sufficient
documentary evidence to demonstrate that satisfactory corrective action had been fully
implemented. Thus, for recommendation number 2, as well as recommendation numbers 1, 3
and 4, USAID Management Bureau’s Office of Management Planning and Innovation will
be responsible for deciding when final action related to these recommendations has occurred.


Recipient Agreements Do Not Contain Updated Provisions
to Ensure Audit Rights and Access to Recipients’ Records

USAID/Mali did not update recipient agreements to reflect revised USAID guidance
concerning audit rights and access to recipients’ records. This occurred because Mission
personnel were not aware of the new requirements and the Mission’s decentralized
organizational structure did not emphasize audit management. As a result, Mission and
recipient personnel may attempt to comply with agreement provisions that are no longer
valid.

Recommendation No. 5: We recommend that USAID/Mali update and amend its
agreements with (1) the Government of Mali for its funding of the Community Health
and Population Services Project, (Project No. 688-0248), (2) the Basic Education
Expansion Project (Project No. 688-0258), and (3) the Development of the Haute Vallee
Project (Project No. 688-0233), to include current provisions for audits and rights of
access to the recipients’ accounting records.

Recommendation No. 6: We recommend that USAID/Mali develop a plan to review
agreements with all of its recipients and, where necessary, include appropriate
provisions (depending on the type of recipient) for current audits and rights of access to
recipients’ accounting records.

Various sections of ADS 591 discuss USAID’s audit rights and its access to recipients’
records. The ADS says that the Comptroller General of the United States or any duly
authorized representative auditor shall have access to any pertinent books, documents, papers
and records of the recipient to make audits and examinations. USAID shall exercise its audit
rights by conducting audits with its own staff through the OIG, by requesting that audits be
conducted by other federal agencies or by contracting with a commercial CPA firm.

As a result, USAID agreements must include provisions requiring the recipient to contract
with an auditor to perform the required audits under their grants with USAID. All agency
cost-type contracts, grants and cooperative agreements shall have provisions requiring audits
of direct costs. In addition, contracting officers shall ensure that cost reimbursable
agreements include a provision requiring an audit of direct costs. The ADS includes standard
provisions for use with non-U.S. grantees that specify, in detail, the accounting and audit
requirements of grantees.

For the three recipients whose agreements we examined, none of the agreements contained
the audit clauses and access rights required by the ADS.
                                            6
§   We noted that USAID’s agreement with the Government of Mali in the Community
    Health and Population Services Project (Project No. 688-0248) was last updated in
    August 1994, to comply with the audit requirements in effect at that time. However,
    since August 1994 this agreement has not been updated for the new ADS audit
    requirements and access provisions, which became effective in September 1997.

§   The Mission could not provide us with any evidence that USAID’s agreement with the
    Government of Mali for the Basic Education Expansion Project (Project No. 688-0258)
    had been updated for new audit requirements and access rights since the project’s
    inception in August 1989.

§   We determined that the agreement with the Government of Mali in the Development of
    the Haute Vallee Project (Project No. 688-0233) was last updated in August 1993 to
    comply with the audit requirements in effect at that time. However, since then, this
    agreement has not been updated for the new ADS audit requirements and access
    provisions, which became effective in September 1997.

These agreements had not been updated because the Mission and its analysts did not take
action to have the agreements amended and updated as required. This inaction occurred due
to a combination of two situations. The Mission analysts responsible for Project Nos. 688-
0248, 688-0233 and 688-0258 were not aware of the new ADS guidelines which changed the
wording of USAID’s audit requirements and access rights. In addition, from 1995 until
January 1999 the Mission’s analysts reported to and were supervised by team leaders, instead
of the controller. During this period the team leaders were not focussed on accounting or
audit issues. Thus, this organizational structure and the lack of focus on audit and
accountability contributed to the oversight in updating the agreements for changes in audit
requirements and access to the recipients’ records.

Without current audit provisions, Mission and recipient personnel may attempt to comply
with agreement provisions, which are no longer valid. For example, earlier audit provisions
had a significantly lower threshold of expenditures ($25,000) which would trigger the
requirement for an audit. Also, recipients were allowed to submit their audit reports much
later (13 months after their year-end) than the current requirement (9 months after their year-
end). Thus, reliance on the outdated provisions could result in unnecessary audits being
conducted or the late submission of required audit reports.

Management Comments and Our Evaluation

USAID/Mali concurred with the two recommendations in this finding. For recommendation
number 5, the Mission stated that it will initiate action to amend each of the agreements
specified in the recommendation to include provisions for audits and rights of access to the
recipients’ accounting records. For recommendation number 6, the Mission said that it will
initiate action to review and amend, where necessary, agreements with its recipients. Thus,
USAID Management Bureau’s Office of Management Planning and Innovation will be
responsible for deciding when final action related to these recommendations has occurred.
                                             7
Audit Recommendations Are
Not Being Actively Followed-Up

In two of the three projects we reviewed, USAID/Mali followed-up on audit
recommendations to reach a management decision and take final action as required by
USAID guidance. However, in the third project sampled, as well as the RIG/Dakar audit that
preceded this report, USAID/Mali did not follow-up on audit recommendations as required
by USAID guidance. This occurred because key internal controls were not functioning as
designed, personnel were not aware of requirements, and the Mission’s decentralized
organizational structure did not emphasize audit management. As a result of this inaction,
funds that should have been repaid to USAID have not been collected, and weaknesses in the
recipients’ and the Mission’s internal control systems continue to exist.

Recommendation No. 7: We recommend that USAID/Mali resolve (management
decision) and close (final action) the outstanding recommendations relating to Audit
Report Nos. 7-688-98-007-R, 7-688-98-009-R and 7-688-97-006-P.

Recommendation No. 8: We recommend that USAID/Mali activate the Mission
Management Control Review Committee, including their review for completeness and
accuracy of the Mission’s Monthly Status of Open Audit Reports Handled by the
Mission.

The ADS glossary defines “audit follow-up” as the process used to ensure that prompt and
responsive action is taken on findings and recommendations contained in final audit reports.

Resolution of Audit Recommendations (Management Decision)

ADS Section 591.5.20 states that audit recommendations shall be resolved within six months
after issuance of a final report. According to this section, “resolution” for monetary findings
occurs when the contracting/grant officer issues a final decision on the allowability of
questioned costs.

Additionally, this ADS section states that the contracting officer shall notify the contractor of
the questioned costs within two weeks of receiving the audit report. If no response is
received within 30 days, the contracting officer shall send a follow-up letter to the contractor.
If, after 20 days, no response is received to this follow-up letter, then the contracting officer
shall make and issue his final decision. In summary, the contracting officer has, at most, 64
days after audit report issuance in which to reach his final decision on the allowability of the
questioned costs.

Closure of Audit Recommendations (Final Action)

ADS Section 591.5.21 states that reasonable efforts shall be made to close audit
recommendations within one year after resolution is reached. According to this section,
“closure” occurs when the contract/grant officer determines that questioned costs are
subsequently substantiated, there is a basis for non-recovery, or collection action is
                                              8
completed. The contract/grant officer’s notification to M/MPI/MIC that a bill of collection
has been issued is an essential procedure in this closure process.

For one of the three projects that we reviewed, we determined that recommendation follow-
up – resolution and closure – was not being performed in accordance with USAID’s ADS
guidelines. Additionally, recommendation follow-up for a prior audit report concerning the
audit management program was not being performed as required by USAID guidance.
Recommendation follow-up, however, was being handled in accordance with USAID
guidelines for the remaining two projects in our sample that we reviewed.

§   Three recommendations were included in the August 13, 1998 audit report (No. 7-688-
    98-009-R) on the Government of Mali’s expenditures under the Community Health and
    Population Services Project, (Project No. 688-0248). As of the date of our audit in mid-
    August, 1999, all three of these recommendations were still unresolved and the
    questioned costs of $298 remained uncollected.

§   A prior audit report covering USAID/Mali’s role in obtaining audits of its contracts,
    grants and cooperative agreements, Audit Report No. 7-688-97-006-P, was dated June 6,
    1997. RIG/Dakar determined that USAID/Mali reached a management decision
    (resolution) on the one recommendation in the report on June 16, 1998. RIG/Dakar’s and
    M/MPI/MIC’s records, however, currently indicate that final action (closure) was never
    taken on the recommendation. USAID/Mali’s Monthly Status of Open Audit Reports
    Handled by the Mission, dated March 31, 1999, did not indicate that any open
    recommendations remained for this audit report. Mission officials were not able to
    provide any evidence that final action was taken on the subject recommendations, nor
    that M/MPI/MIC was notified of final action (closure).

§   One recommendation was included in the June 16, 1998 audit report (No. 7-688-98-007-
    R) on the Government of Mali’s expenditures under the Basic Education Expansion
    Project (Project No. 688-0258). This recommendation was resolved on October 28,
    1998, which was within the six-month period specified in USAID’s guidelines. As of the
    date of our audit in mid-August, 1999, this recommendation had not been closed. Since
    the issuance of a letter to the recipient on October 23, 1998, no formal documented action
    has been taken by the Mission to collect the questioned costs of $7,192.

§   One recommendation was included in the August 28, 1998 audit report (No. 7-688-98-
    012-R) on the Government of Mali’s Development of the Haute Vallee Project (Project
    No. 688-0233). This recommendation was resolved in October 1998, which was within
    the six-month period specified in USAID’s guidelines. As of the date of our audit in
    mid-August 1999, however, this recommendation had not been closed. The last action
    took place on July 27, 1999 when the Mission sent a letter to the recipient in an attempt
    to collect the $9,051 of questioned costs.

The Mission did not follow-up on these recommendations as required in the ADS guidelines
because of a combination of three situations:

                                             9
§   The Mission’s internal control system for audit management and resolution was not
    functioning as designed. For example the Mission Management Control Review
    Committee (MCRC) had never met to discuss the resolution and closure of audit
    recommendations. Also, the Mission’s Monthly Status of Open Audit Reports Handled
    by the Mission is incomplete and did not accurately reflect the status of
    recommendations.

§   The Mission analysts responsible for Project Nos. 688-0248, 688-0233 and 688-0258
    were not fully aware of the resolution and closure requirements specified in the ADS
    guidelines.

§   From 1995 until January 1999 the Mission’s analysts reported to and were supervised by
    the team leaders, instead of the controller. During this period the team leaders were not
    focussed on accounting or audit issues. Thus, this organizational structure and the lack of
    focus on recommendation resolution and closure contributed to the instances of non-
    compliance.

As a result of the delays in resolving and closing audit recommendations relating to USAID’s
recipients, $16,541 that recipients should have refunded to USAID remain uncollected. In
addition, weaknesses in the recipients’ and Mission’s internal control systems continued to
exist. These continuing internal control weaknesses, in turn, may contribute to future
questioned costs.

Management Comments and Our Evaluation

USAID/Mali concurred with the two recommendations related to this finding but, as of the
date of this report, had not taken sufficient action to close either recommendation. Thus,
USAID Management Bureau’s Office of Management Planning and Innovation will be
responsible for deciding when final action related to these recommendations has occurred.


USAID/Mali’s Audit
Management Plan is Not Complete

USAID/Mali did not develop a complete audit management plan that conformed to USAID
guidance. This occurred because the staff was not aware of the audit plan requirements and
did not implement procedures to adequately analyze the Mission’s project portfolio to
identify projects that required audits. Without a complete audit management plan, the
Mission will be unable to obtain assurance that all required audits are scheduled and follow-
up on recommendations has been completed as required by guidance.

Recommendation No. 9: We recommend that USAID/Mali develop a complete Audit
Management Plan that complies with the requirements of ADS section 591.5.17.

The ADS glossary defines an “audit management plan” as an annual plan developed by
USAID missions, which outlines audit requirements for all non-U.S. contractors and
                                             10
grantees. Section 591.3 of the ADS says that the mission Audit Management Officer is
responsible for coordinating with the Regional Inspector General for Audit, mission activity
managers, and other mission officials to develop this annual plan.

Section 591.5.17 states that USAID missions shall: (1) develop an audit management plan to
ensure complete audit coverage of all non-U.S. organizations (including mission-funded
activities in non-presence countries); (2) implement a mission Management Control Review
Committee to monitor the status of the implementation of the mission’s audit management
plan; and (3) in connection with this plan, maintain an inventory of contracts, grants and
cooperative agreements with foreign organizations. The plan shall include information
regarding the contractor/grantee, the agreement start and completion dates, as well as prior,
current, and future audits.

USAID/Mali was in the process of developing its required audit management plan.
However, this management plan did not contain all of the non-U.S. organizations for which
USAID/Mali is responsible. Nor did it have all of the above information required by ADS
section 591.5.17. Grants to the following three non-U.S. organizations, which reported
expenditures in excess of $300,000 in one year, were missing from the audit management
plan:

§   Grant No. 688-0271, a $2 million grant to the United Nations Development Program on
    behalf of the Government of Mali in its efforts to end civil unrest in the northern regions,
    was not included in the plan although it reported expenditures exceeding $300,000 in
    fiscal year 1997. The expiration date of the grant is October 1, 1998. The terms of the
    grant include an audit clause stating that the grant account is subject to audit in
    accordance with established procedures under appropriate provisions of the financial
    regulations and rules of USAID.

§   Cooperative Agreement No. 624-0434-A-00-3063-00, a $5 million grant to the African
    Development Bank for institutional strengthening, was not included in the plan although
    it reported expenditures in excess of $300,000 in fiscal year 1997. The completion date
    for the agreement was April 25, 1997. The terms of the agreement required that an
    independent audit be performed.

§   Grant      No.     624-G-00-95-00056-00,       a     $2.2   million   grant     to     the
    Agriculture/Hydrology/Meteorology Program (AGRHYMET), was not on the plan
    although it reported expenditures in excess of $300,000 in fiscal year 1998. The
    completion date of this grant is December 31, 1998. Although this grant was not
    reflected on the audit plan, the grantee was nevertheless being audited under another
    audit for a different grantee, which included several components. Under the audit for The
    Permanent Interstate Committee for Drought Control in the Sahel (CILSS), one of the
    components was AGRHYMET, in addition to other USAID/Mali-supported entities. The
    Africa Bureau had recently contracted for an audit of these components; however, the
    CILSS audit and the included components were not identified on the plan.


                                              11
In addition, the audit management plan did not reflect the grant/contract start dates as
required by the above-mentioned ADS.

One cause for the incomplete plan was that the Mission did not have in place a functioning
system to identify and inventory potential audits. The current audit plan, which is still in
draft, was an initial one-time effort to prepare a plan. The procedures used to prepare the
plan did not include an examination of the projects/programs that the Mission had received
from other countries. An additional cause was that the Mission did not completely review
MACS expenditures to identify and inventory those potential projects/programs that may
need audit.

As a consequence of the above, USAID/Mali does not have assurance that all
projects/programs needing audit coverage have been identified. At least $7 million of
expenditures have not received audit coverage, and $9.2 million were not included in the
audit management plan. Additionally, potential questioned costs and project/program control
system weaknesses may not have been identified.

Management Comments and Our Evaluation

USAID/Mali concurred with this recommendation and provided our office with a copy of
their FY 2000 Audit Management Plan. However, this Plan did not include all of the
recipients that we identified as being subject to the ADS audit requirements. Thus, USAID
Management Bureau’s Office of Management Planning and Innovation will be responsible
for deciding when final action related to this recommendation has occurred.




                                            12
                                                                              Appendix I
                                                                              Page 1 of 2




                                SCOPE AND
                               METHODOLOGY




Scope
We audited USAID/Mali’s audit management program in accordance with generally
accepted government auditing standards. The audit assessed USAID/Mali’s internal
controls over the financial audit process. Specifically, the audit addressed whether
USAID/Mali:

§   included appropriate clauses in grants, contracts, and cooperative agreements with
    non-U.S. organizations;

§   developed mission-specific guidance for its financial management program, including
    the establishment of a management control review committee;

§   established an accurate audit universe and audit management plan;

§   provided funding for audits in project and other agreements;

§   completed audits as frequently as required under USAID guidance; and

§   tracked and resolved audit recommendations.

The audit examined USAID/Mali’s audit coverage of $53,457,654 in expenditures
reported in the MACS for the period October 1, 1997 to September 30, 1998. However,
we did not examine those expenditures reported by U.S.-based organizations that were
included in this amount; nor did we examine host country-owned local currency. We did
not verify the reliability of the Mission’s computer generated data; nor did we project the
results of our test to items that we did not test.

The field work was conducted at USAID/Mali in Bamako, Mali, during the period
August 2, 1999 to August 20, 1999.
Methodology
We began the field work with a study and evaluation of the Mission’s internal control
system as it related to the audit management program. This included an analysis of
Mission guidance, the procedures followed for developing the audit inventory and audit
plan, the involvement of the management control review committee, and the procedures
for closing audit recommendations. We then analyzed the Mission’s internal control
system and compared our results to the requirements found in USAID guidance. Since
the Mission’s control system was not functioning as intended, we assessed control risk as
relatively high.

From the Mission’s MACS, we developed and identified a universe of seven non-U.S.
recipients that individually reflected expenditures on USAID/Mali’s records of more than
$300,000 for the fiscal year ending September 30, 1998. Expenditures for these seven
recipients totaled $5,251,328 which is the amount subject to audit according to USAID’s
ADS guidelines. We judgmentally selected the following three recipients for our detailed
audit review:

       §   Government of Mali for the Community Health and Population Services
           Project, (Project # 688-0248), with fiscal year ending 9/30/98 expenditures of
           $509,297;

       §   Government of Mali for the Basic Education Expansion Project (Project #688-
           0258) with fiscal year ending 9/30/98 expenditures of $2,231,076; and

       §   Government of Mali for the Development of the Haute Vallee Project (Project
           #688-0233), with fiscal year ending 9/30/98 expenditures of $595,132.

These three recipients represent 43% of all recipients subject to audit requirements and
their combined expenditures totaled $3,335,505 (64% of the expenditures subject to
audit). We tested this sample to determine whether: (1) the required audits had been
completed and submitted as required, (2) the agreements included a budget for audits, (3)
the agreements contained updated audit clauses, and (4) audit recommendation follow-up
was performed as required.

We also examined expenditures in fiscal year 1997 to determine if there were any
recipients that should have had an audit that were not included in the Mission’s audit plan
and inventory.
